September 8, 2008

LINDA J. WELCH
DISTRICT MANAGER, DALLAS CUSTOMER SERVICE DISTRICT

SUBJECT:          Management Advisory Report – Missent Priority Mail® Procedures in
                  the Dallas District (Report Number NO-MA-08-001)

This report presents the results of our review of missent Priority Mail1 procedures in the
Dallas District (Project Number 08XG024NO000). Our objective was to assess the
Dallas District’s procedures for missent Priority Mail. The U.S. Postal Service Office of
Inspector General (OIG) began a review at post offices served by the North Texas
Processing and Distribution Center (P&DC) after receiving a hotline complaint. Click
here to go to Appendix A for additional information about this review.

Conclusion

The Dallas District’s procedures for missent Priority Mail were ineffective. Although
operations at the Plano, Texas Priority Mail Hub were stopped in June 2007 based on
our prior review,2 the subsequent implementation of a 50-mile rule imposed additional
burdens on post offices to deliver missent Priority Mail.

Priority Mail Procedures

The 50-mile rule, implemented on June 20, 2007, required post offices in the Dallas
District to deliver3 missent Priority Mail within a 50-mile radius of their respective post
offices. Postmasters stated in interviews that the 50-mile rule was more labor-intensive
and required more resources to deliver missent Priority Mail to the correct location than
the former Priority Mail Hub operation in Plano, Texas, which was considered inefficient.

On May 14, 2008, as a result of our discussions with Dallas District management, they
provided post offices with updated instructions for delivery of missent Priority Mail.
These updated instructions require post offices to deliver missent Priority Mail only for
post offices or branches within their jurisdiction or for cities in close proximity. Missent
Priority Mail that did not meet these criteria would be marked as missent and returned to
the local processing plant for reprocessing.



1
  Priority Mail is First-Class Mail that weighs more than 13 ounces and, at the mailer’s option, any other mail matter
weighing 13 ounces or less. Priority Mail provides expedited delivery.
2
  Priority Mail Hub Operations in Plano, Texas (Report Number NO-AR-07-011, dated September 26, 2007).
3
  For reporting purposes, “deliver” means the post office receiving the missent Priority Mail piece is responsible for
physically transporting that mail piece to the intended post office. The intended post office is responsible for ensuring
delivery to the correct address in its service area.
Missent Priority Mail Procedures in the Dallas District                                   NO-MA-08-001



Delivery confirmation scores for Priority Mail, both air and surface mail, have not
changed substantially since the updated procedure was implemented. The scores for
these two service categories have been consistently above the service goals of 90 and
95 percent, respectively. Click here to go to Appendix B for additional information.

However, by updating the procedure and subsequently implementing it, the Dallas
District decreased the amount of time spent and mileage incurred to deliver missent
Priority Mail. Audit Report Number NO-AR-07-011 reported unnecessary operating
costs of more than $736,000 for a period of approximately 13 months that the Priority
Mail Hub was in operation. Management agreed with that amount. Based on
information obtained from the hotline contact and from other postmasters, the 50-mile
rule was very labor- and-mileage intensive and placed undue burdens on the
postmasters, who did not receive additional time or financial resources to deliver this
missent mail.4 During the entrance conference for this review, management agreed
with our observations; therefore, we did not make further calculations on the costs of
implementing the 50-mile rule. Because management proactively took corrective action
on our concerns, we are not making any recommendations in this report.

Management’s Comments

Management comments were not required since management took action on the finding
during our report, and therefore no recommendations were made. However,
management responded to the report and agreed with the finding and observations.
Management’s comments, in their entirety, are included in Appendix C.

Evaluation of Management’s Comments

We consider management’s comments responsive to the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.
        E-Signed by Robert Batta
    VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

4
 One postmaster expressed the belief that the cost of the new procedures in time and mileage was greater than
costs previously incurred when employees met at the Priority Mail Hub in Plano, Texas, to pick up missent mail for
delivery.




                                                          2
Missent Priority Mail Procedures in the Dallas District       NO-MA-08-001




cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Ellis A. Burgoyne
    David E. Williams
    Katherine S. Banks




                                                          3
Missent Priority Mail Procedures in the Dallas District                                   NO-MA-08-001



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The North Texas P&DC is located in the Dallas District of the Southwest Area. The
P&DC processed over 1.6 billion mailpieces in fiscal year (FY) 2007 and serves
34 cities and towns in the Dallas metropolitan area.

On June 20, 2007, the North Texas P&DC ceased operating the Priority Mail Hub5 in
Plano, Texas, as a result of the prior OIG review of the operation. Effective June 20,
2007, an alternate procedure was implemented to deliver missent Priority Mail without
delay. Previously, employees had met at the Priority Mail Hub in Plano, Texas, to
exchange missent Priority Mail and receive additional Priority Mail; with the new
procedure, they physically delivered the missent mail each day by driving it to the
correct post office each morning, or they drove to another predetermined location so the
mail could be delivered the same day. The Postal Service considers mail delayed when
it is not processed or dispatched to meet its scheduled delivery date. Priority Mail
should reach its destination anywhere in the continental U.S. within 2 business days.

In January 2008, a new District Manager took charge of the Dallas District. The Priority
Mail Hub in Plano, Texas, had been opened under the previous District Manager. The
change in procedures following the closure of the Priority Mail Hub and the revised
policy requiring the delivery of Priority Mail within a 50-mile radius also took place under
the previous District Manager.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the Dallas District’s procedures for missent Priority Mail.
To achieve this objective, we interviewed the individual who filed a hotline complaint
with the OIG and management at 11 post offices; reviewed Postal Service criteria on
handling missent mail and Priority Mail tracking reports; analyzed data provided by
Postal Service management; interviewed Postal Service officials; and assessed the
effects of the alternate procedure on post offices. We relied on data and documentation
provided by the Postal Service and verified the results with Postal Service managers.
Nothing came to our attention to suggest the data was unreliable.

We conducted this review from March through August 2008 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our observations and conclusions with the Postal Service on April 24, 2008,
and included their comments where appropriate.




5
  The Priority Mail Hub was a designated location where carriers met daily to exchange missent Priority Mail and
receive additional Priority Mail shipped daily directly to the Priority Mail Hub from the North Texas P&DC.




                                                          4
 Missent Priority Mail Procedures in the Dallas District                    NO-MA-08-001




 PRIOR AUDIT COVERAGE

 We conducted a similar review at Plano, Texas, as shown in the table below.

                       Report                                  Monetary
Report Title           Number             Final Report Date     Impact         Report Results
Priority Mail      NO-AR-07-011           September 26, 2007   $1,424,079   Management closed the
Hub                                                                         Priority Mail Hub during
Operations in                                                               the review. We
Plano, Texas                                                                questioned cost of
                                                                            $736,543 in economic
                                                                            impact associated with
                                                                            the Priority Mail Hub. In
                                                                            addition, we identified
                                                                            $687,536 in funds put
                                                                            to better use by the
                                                                            closing of the Priority
                                                                            Mail Hub.




                                                           5
                                              Missent Priority Mail Procedures in the Dallas District                                                                                                            NO-MA-08-001



                                                 APPENDIX B: DALLAS DISTRICT’S DELIVERY CONFIRMATION SCORES FOR
                                                             PRIORITY MAIL WITH DELIVERY CONFIRMATION

                                              The Dallas District’s Priority Mail scores for both air and surface destination mailpieces
                                              have consistently been above the goals of 90 and 95 percent, respectively. The
                                              elimination of the 50-mile rule during the week of May 10 through 16, 2008, did not
                                              dramatically impact these scores. The graphs below show both the Priority Mail air and
                                              surface score trends for the weeks from March 1, 2008, through the week ending
                                              June 20, 2008.

                                                                             Dallas District’s Delivery Confirmation Scores for Priority Mail
                                                                                      Delivered by Air with Delivery Confirmation
P e rc e n t M e e tin g S ta n d a rd




                                         96
                                         94
                                         92
                                         90
                                         88
                                         86
                                         84
                                                                    3 /1 4




                                                                                                          - 4/ 4


                                                                                                                          4 /1 1




                                                                                                                                                                - 5/ 2




                                                                                                                                                                                                                                 - 6/ 6


                                                                                                                                                                                                                                                 6 /1 3
                                                      3 /7




                                                                                                                                                                                5 /9
                                                                                       1

                                                                                                    8




                                                                                                                                            8


                                                                                                                                                          5




                                                                                                                                                                                                6


                                                                                                                                                                                                             3


                                                                                                                                                                                                                           0




                                                                                                                                                                                                                                                                   0
                                                                                - 3/ 2

                                                                                             - 3/ 2




                                                                                                                                     - 4/ 1


                                                                                                                                                   - 4/ 2




                                                                                                                                                                                         - 5/ 1


                                                                                                                                                                                                      - 5/ 2


                                                                                                                                                                                                                    - 5/ 3




                                                                                                                                                                                                                                                            - 6/ 2
                                               3 /1 -




                                                                                                                                                                         5 /3 -
                                                             3 /8 -




                                                                                                                   4 /5 -




                                                                                                                                                                                                                                          6 /7 -
                                                                                                        3 /2 9




                                                                                                                                                              4 /2 6




                                                                                                                                                                                                                               5 /3 1
                                                                              3 /1 5

                                                                                           3 /2 2




                                                                                                                                   4 /1 2


                                                                                                                                                 4 /1 9




                                                                                                                                                                                       5 /1 0


                                                                                                                                                                                                    5 /1 7


                                                                                                                                                                                                                  5 /2 4




                                                                                                                                                                                                                                                          6 /1 4
                                                                                                                                                FY 2008 Weeks Of

                                                                                                            Dallas District Air Network Desinating Scores                        Air Network Goal 90.0%




                                                                                                                                                          6
                                Missent Priority Mail Procedures in the Dallas District                                                                                      NO-MA-08-001



                                                       Dallas District’s Delivery Confirmation Scores for Priority Mail
                                                            Delivered by Surface Mail with Delivery Confirmation
Percent Meeting Standard




                           99
                           98
                           97
                           96
                           95
                           94
                           93
                           92
                           91
                           90
                                               /14




                                                                                 4/4


                                                                                              /11




                                                                                                                                5/2




                                                                                                                                                                                          6/6


                                                                                                                                                                                                       /13
                                   /7




                                                                                                                                             /9
                                                             1


                                                                         8




                                                                                                            8


                                                                                                                        5




                                                                                                                                                          6


                                                                                                                                                                      3


                                                                                                                                                                                  0




                                                                                                                                                                                                                     0
                                                         3/2


                                                                     3/2




                                                                                                        4/1


                                                                                                                    4/2




                                                                                                                                                      5/1


                                                                                                                                                                  5/2


                                                                                                                                                                              5/3




                                                                                                                                                                                                                 6/2
                                -3




                                                                                                                                        -5
                                          -3




                                                                                         -4




                                                                                                                                                                                                  -6
                                                                                 9-




                                                                                                                                6-




                                                                                                                                                                                          1-
                            3 /1




                                                         5-


                                                                     2-




                                                                                                        2-


                                                                                                                    9-




                                                                                                                                                      0-
                                                                                                                                      5 /3




                                                                                                                                                                  7-


                                                                                                                                                                              4-




                                                                                                                                                                                                                 4-
                                        3 /8




                                                                             3 /2


                                                                                       4 /5




                                                                                                                            4 /2




                                                                                                                                                                                      5 /3


                                                                                                                                                                                                6 /7
                                                     3 /1


                                                                 3 /2




                                                                                                    4 /1


                                                                                                                4 /1




                                                                                                                                                  5 /1


                                                                                                                                                              5 /1


                                                                                                                                                                          5 /2




                                                                                                                                                                                                             6 /1
                                                                                                                 FY 2008 Weeks Of

                                                                              Dallas District Suface Network Destinating Scores                   Surface Network Goal 95.0%




                                                                                                                            7
Missent Priority Mail Procedures in the Dallas District       NO-MA-08-001



                     APPENDIX C: MANAGEMENT’S COMMENTS




                                                          8
